Nos. 19-1155 and 19-1156
IN THE

Supreme Court of the United States
_________

JEFFREY A. ROSEN, ACTING ATTORNEY GENERAL,
Petitioner,
v.
MING DAI,
Respondent.
_________
JEFFREY A. ROSEN, ACTING ATTORNEY GENERAL,
Petitioner,
v.
CESAR ALCARAZ-ENRIQUEZ,
Respondent.
_________
On Writs of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
_________
RESPONDENTS’ JOINT AND UNOPPOSED
MOTION FOR DIVIDED ARGUMENT
_________
Pursuant to Rules 21 and 28.4 of this Court, Respondents Ming Dai and Cesar
Alcaraz-Enriquez jointly move for oral argument to be divided equally between the
Respondents in these separate, consolidated cases. Divided argument is necessary
because the Government’s position turns largely on the specific facts of each case and
its disposition below, which vary considerably, and because requiring one attorney to
represent both Respondents in a single oral argument would prejudice Respondents
and lead to unnecessary confusion. Furthermore, this Court granted both cases
despite the Solicitor General’s request that it hold one case pending resolution of the
other, indicating that the Court recognized that they were meaningfully different.
1

This Court has granted divided argument in other consolidated cases arising from
separate removal proceedings, even where the dissimilarities were far less important
than they are here. See, e.g., Holder v. Martinez Gutierrez, 565 U.S. 1104 (2012)
(mem.); Holder v. Sawyers, 565 U.S. 1104 (2012) (mem.). The Court should follow the
same approach in these cases. The Government has informed Respondents that it
does not object to this motion.
1. These consolidated cases arise out of two separate removal proceedings with
widely divergent fact patterns.
Ming Dai, the Respondent in No. 19-1155, is a Chinese national who sought
asylum and withholding of removal after he was beaten, detained, and fired from his
job for resisting Chinese family-planning officers’ efforts to take his wife for a forced
abortion. In immigration court, Dai gave live testimony and produced corroborating
evidence demonstrating that he was persecuted due to his resistance to that forced
abortion and that he reasonably feared future persecution, including forced
sterilization, if he returned to China. Without acknowledging Dai’s corroborating
evidence or deeming Dai’s testimony non-credible, the immigration judge and the
Board of Immigration Appeals (“BIA”) denied relief. The court of appeals granted
Dai’s petition for review. It held that because the agency did not find Dai noncredible, the court could not uphold the agency’s decision by making its own adverse
credibility finding. The court further held that, without finding Dai non-credible, the
evidence compelled the conclusion that Dai was eligible for asylum and entitled to
withholding of removal.
2

Cesar Alcaraz-Enriquez (“Alcaraz”), the Respondent in No. 19-1156, is a
Mexican national who suffers from schizophrenia, and who sought withholding of
removal after he was beaten and imprisoned by Mexican authorities because of his
mental illness. An immigration judge held that Alcaraz was ineligible for relief
because a probation report from fifteen years earlier contained an account stating
that Alcaraz severely assaulted his girlfriend. Although Alcaraz vigorously disputed
that account and introduced corroborating evidence supporting his recollection, the
immigration judge accepted the facts alleged in the probation report as true without
further explanation, and the BIA summarily affirmed that decision. The court of
appeals, however, remanded the case to the agency, explaining that because the BIA
did not find Alcaraz’s testimony non-credible, it erred by failing to explain why it
credited the account in the probation report over Alcaraz’s contrary testimony.
2. In its merits brief in this Court, the Government’s central contention is that
the court of appeals should have upheld both agency decisions because each decision
was supported by substantial evidence in the agency record. Gov’t Br. 20-25, 31-34.
The Government argues, in response to the first question presented in Dai and the
only question presented in Alcaraz, that the panels rejected the agency decisions at
issue by improperly presuming Respondents’ testimony to be “credible and true.” Id.
at I, 26-31. In response to Respondents’ arguments that each panel applied only a
presumption of credibility, not truth, the Government argues that the factual record
in each case supports the agency’s decision even if the court below correctly treated
Respondents’ testimony as credible. The Government also argues, in response to the
3

second question presented in Dai—a question that is not presented in Alcaraz—that
the court of appeals erred by failing to remand the case to the agency to re-adjudicate
asylum eligibility and entitlement to withholding of removal. Id. at 35-38.
3. Given the distinct facts and dispositions in each case, this Court would
benefit from a separate presentation on each question from each Respondent’s
counsel. See Stephen M. Shapiro et al., Supreme Court Practice 777 (10th ed. 2013)
(“Having more than one lawyer argue on a side is justifiable * * * when they represent
different parties with different interests or positions.”). Although Respondents are
generally in agreement as to the relevant statutory question—whether a court of
appeals can make its own de novo credibility determination when neither the
immigration judge nor the BIA found the applicant non-credible—that question has
become a relatively minor aspect of these cases, and occupies less than three pages of
the Government’s brief. These cases now turn far more on the specific facts of each
Respondent’s case, the disposition below, and the implications of the statutory rule
for each Respondent’s petition for review.
a.

Because each case rests on a different evidentiary record and involves

different factual findings, the application of the substantial-evidence standard to
each case is different, as well. Much of the Government’s brief is devoted to arguing
that substantial evidence supports each of the two decisions under review, an
argument that requires it to separately discuss the evidence presented in each case
and explain why, in the Government’s view, it supports the agency’s decision. See
Gov’t Br. 6-14, 22-24, 35-38 (discussing the evidence in Dai); id. at 14-17, 24-25
4

(discussing the evidence in Alcaraz). Each Respondent, in turn, devotes substantial
portions of his brief to rebutting these fact-intensive arguments, and explaining why,
given the specific facts at issue, substantial evidence does not support the agency’s
decision in his case. See Dai Br. 11-19, 40-45; Alcaraz Br. 7-14, 40-49.
Moreover, the nature of each Respondent’s substantial-evidence argument is
different, and that difference necessarily informs the legal standard each finds
appropriate. Dai argues that, because of his detailed testimony and corroborating
evidence and the lack of conflicting evidence, the only permissible way to reject his
asylum eligibility or entitlement to withholding was to find him non-credible—which
the agency never did. Dai Br. 40-45. Alcaraz, by contrast, argues that because the
agency did not find Alcaraz’s testimony non-credible, it did not adequately explain
why it chose to credit an account that “directly contradict[ed]” Alcaraz’s version of
events. Alcaraz Br. 43-45.
Given how important the specific facts of each case are, it would be extremely
difficult for one attorney to represent both Respondents in the same oral argument.
For one thing, while Respondents’ arguments do not directly conflict, an attorney
representing one Respondent would emphasize points that are not necessarily in the
other Respondent’s interest. For instance, an attorney representing Dai would likely
emphasize the lack of conflicting record evidence. E.g., Dai Br. 41-42 (taking no
position on whether the agency’s reasoning in Alcaraz was sufficient to justify its
choice of one account over the other). An attorney representing Alcaraz, on the other
hand, would emphasize the need for the agency to explain its reasons for crediting
5

one of two conflicting accounts. See Alcaraz Br. 22-24, 39-40, 43-45. Moreover,
requiring one attorney to jump between the specific facts at issue in each case in
response to questions would make argument more confusing than if the cases were
separately presented.
Unsurprisingly, then, this Court routinely grants divided argument where two
consolidated cases present distinct fact-intensive questions. See, e.g., Abbott v. Perez,
138 S. Ct. 1544 (2018) (mem.) (granting divided argument in consolidated cases
presenting different claims of racial gerrymandering); Turner v. United States, 137
S. Ct. 1248 (2017) (mem.) (granting divided argument in consolidated cases
presenting distinct Brady claims); Ziglar v. Abbasi, 137 S. Ct. 615 (2017) (mem.)
(granting divided argument in consolidated cases presenting distinct Bivens claims);
Kansas v. Gleason, 135 S. Ct. 2917 (2015) (mem.) (granting divided argument in
consolidated cases presenting different sentencing issues); Rapanos v. United States,
546 U.S. 1000 (2005) (mem.) (granting divided argument in consolidated cases
presenting factually distinct positions concerning application of the Clean Water Act).
Indeed, this Court granted divided argument in another case in which this Court
consolidated two cases originating from separate removal proceedings, even though
the factual differences there were far less important than here. Holder v. Martinez
Gutierrez, 565 U.S. 1104 (2012) (mem.); Holder v. Sawyers, 565 U.S. 1104 (2012)
(mem.).
b.

Divided argument is also appropriate because these consolidated cases

present distinct but overlapping questions. In Alcaraz, the sole question presented
6

is whether the court of appeals erred by holding that it was not permitted to evaluate
Alcaraz’s credibility where the agency did not make an adverse credibility finding.
See Alcaraz Pet. I. In Dai, by contrast, the Court also granted certiorari on a second
question: whether the panel should have remanded the case to the agency after
concluding that Dai’s testimony could not be treated as non-credible. See Dai Pet. I.
Neither Respondent’s attorney would be in a position to address both questions
in a way that would be equitable to both Respondents. Alcaraz takes no position on
the second question presented in Dai, and is likely to emphasize the court’s decision
to remand his case as a consideration supporting the reasonableness of the judgment
below. E.g., Alcaraz Br. 46-48 & n.9 (noting that the agency will have another
opportunity to explain its decision on remand, and taking no position on whether the
disposition in Dai was appropriate). Dai’s attorney, by contrast, will argue both
questions, and has no reason to emphasize the relevance of a remand in Alcaraz. This
Court often grants divided argument where, as here, consolidated cases present
overlapping but distinct questions that may cause parties to have different interests.
See, e.g., Gleason, 135 S. Ct. 2917 (granting divided argument where one of two
consolidated cases presented a second question); Turner, 137 S. Ct. 1248 (granting
divided argument where consolidated cases presented different but overlapping
questions).
c.

Given the different factual issues and dispositions below, Respondents

unsurprisingly take somewhat different approaches to the legal question at issue.
There is a dispute as to whether the court of appeals even applied the same rule in
7

each case: The Government contends that the panel in Alcaraz “expressly” applied a
presumption of truthfulness, Gov’t Br. 31, whereas the panel in Dai “applied such a
rule in substance,” id. at 26.

Although each Respondent disputes those

characterizations, their grounds for doing so differ, compare Dai Br. 38-39, with
Alcaraz Br. 45-46, and Respondents have divergent interests in defending the
different formulations used by the Ninth Circuit, see Dai Br. 39-40 (declining to
defend the formulation used by the panel in Alcaraz).
Further, Respondents make distinct arguments in defending the rule that they
both contend the court of appeals actually applied—that is, that a court of appeals
may not find an applicant non-credible if the immigration judge and the BIA failed
to make an adverse credibility finding. Compare Dai Br. 28-36, with Alcaraz Br. 1737. This Court often grants divided argument where separately-counseled parties
file separate briefs emphasizing different arguments in support of the same basic
legal proposition. See, e.g., Fulton v. City of Philadelphia, 141 S. Ct. 230 (2020)
(mem.); Kelly v. United States, 140 S. Ct. 661 (2019) (mem.); Rucho v. Common Cause,
139 S. Ct. 1316 (2019) (mem.); Am. Legion v. Am. Humanist Ass’n, 139 S. Ct. 951
(2019) (mem.); McDonald v. City of Chicago, 559 U.S. 902 (2010) (mem.).
4. Divided argument is particularly appropriate here given the Court’s decision
to grant certiorari in both Dai and Alcaraz. Although the Government requested that
the Court grant the petition in Dai and hold the petition in Alcaraz, this Court
granted certiorari in both cases, suggesting that the Court understood the two cases
to have important differences. Granting divided argument would ensure that the
8

interests of both Respondents are adequately represented and that any important
distinctions between the cases can be explored at argument.
Respectfully submitted,
/s/ Neal Kumar Katyal
NEAL KUMAR KATYAL
Counsel of Record
MITCHELL P. REICH
NATHANIEL A.G. ZELINSKY*
HOGAN LOVELLS US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
(202) 637-5600
neal.katyal@hoganlovells.com

/s/ David J. Zimmer
David J. Zimmer
Counsel of Record
Edwina B. Clarke
William E. Evans
Goodwin Procter LLP
100 Northern Ave.
Boston, MA 02109
(617) 570-1000
dzimmer@goodwinlaw.com

KRISTINA ALEKSEYEVA
HOGAN LOVELLS US LLP
390 Madison Avenue
New York, NY 10017

Counsel for Ming Dai

*Admitted only in Connecticut;
practice supervised by principals of
the firm admitted in D.C.

Counsel for Cesar Alcaraz-Enriquez
January 4, 2021

9

